No. 20-937
In the

Supreme Court of the United States
Robert Andrews,
Petitioner,
v.
New Jersey,
Respondent.

On Petition for a Writ of Certiorari
to the Supreme Court of New Jersey

BRIEF FOR AMICUS CURIAE ASSOCIATION
OF CRIMINAL DEFENSE LAWYERS OF
NEW JERSEY IN SUPPORT OF PETITIONER
Matthew S. A dams
Marissa Koblitz Kingman
Counsel of Record
A rrianna T. Diamantis
Fox Rothschild LLP
49 Market Street
Morristown, New Jersey 07960
(973) 992-4800
mkingman@foxrothschild.com
Linda D. Foster
President of the A ssociation of
Criminal Defense Lawyers of
New Jersey
P.O. Box 180
West Allenhurst, New Jersey 007711
(732) 517-1533
Counsel for Amicus Curiae
301472

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I.	The United States Supreme Court’s Review is
Warranted Because the Rule of Law Adopted
By the New Jersey Supreme Court Below
Impacts Millions of Ordinary Citizens . . . . . . . . 5
II. If The Petition Is Not Granted, Confusion
Regarding The Application and Scope
of a F u nda ment a l Const itut iona l
Right Will Continue . . . . . . . . . . . . . . . . . . . . . . . 11
III. Fisher Should Be Revisited  . . . . . . . . . . . . . . . . 21
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

ii
TABLE OF CITED AUTHORITIES
Page
Cases
Boyd v. United States,
116 U.S. 616 (1886) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Carpenter v. U.S.,
138 S. Ct. 2206 (2018) . . . . . . . . . . . . . . . . . . . . . .  17, 22
Commonwealth v. Davis,
220 A.3d 534 (Pa. 2019)  . . . . . . . . . . . . . .  11, 15, 16, 18
Commonwealth v. Gelfgatt,
11 N.E.3d 605 (Mass. 2014) . . . . . . . . . . . . . . . . . . . . 18
Doe v. U.S.,
487 U.S. 201 (1988)  . . . . . . . . . . . . . . . . . . . .  7, 9, 10, 12
Fisher v. United States,
425 U.S. 391 (1976)  . . . . . . . . . . . . . . . . . . . . . . . passim
G.A.Q.L. v. State,
257 So. 3d 1058 (Fla. Dist. Ct. App. 2018) . . . . . 18, 19
Gilbert v. California,
388 U.S. 263 (1967) . . . . . . . . . . . . . . . . . . . . . . . . . 8, 14
In re Grand Jury Subpoena,
670 F.3d 1335 (11th Cir. 2012)  . . . . . . . . . . . . . . . . . . 20

iii
Cited Authorities
Page
In re Harris,
221 U.S. 274 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Pennsylvania v. Muniz,
496 U.S. 582 (1990) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Pollard v. State,
287 So.3d 649 (Fla. Dist. Ct. App. 2019) . . . . . . . . . . 20
Riley v. California,
573 U.S. 373 (2014)  . . . . . . . . . . . . . . . . . . . . . . 6, 16, 22
Schmerber v. California,
384 U.S. 757 (1966) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Seo v. State,
148 N.E.3d 952 (Ind. 2020) . . . . . . . . . . . .  13, 16, 18, 19
State v. Andrews,
243 N.J. 447 (2020)  . . . . . . . . . . . . . . . . . . . . . . . passim
State v. Stahl,
206 So. 3d 124 (Fla. Dist. Ct. App. 2016) . . . . . . 18, 19
U.S. v. Apple MacPro Computer,
851 F.3d 238 (3d Cir. 2017) . . . . . . . . . . . . . . . . . . 13, 20
United States v. Dionisio,
410 U.S. 1 (1973)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 14

iv
Cited Authorities
Page
United States v. Gavegnano,
305 F. App’x 954 (4th Cir. 2009) . . . . . . . . . . . . . . 12, 20
United States v. Hubbell,
530 U.S. 27 (2000) . . . . . . . . . . . . . . . . . . . . . . . . passim
United States v. Maffei,
No. 18-CR-00174-YGR-1, 2019 WL 1864712
(N.D. Cal. Apr. 25, 2019) . . . . . . . . . . . . . . . . . 12, 13, 20
Statutes
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

1
INTEREST OF AMICUS CURIAE1
The Association of Criminal Defense Lawyers of New
Jersey (ACDL-NJ) is a non-profit corporation organized
under the laws of New Jersey to protect and ensure by
rule of law those individual rights guaranteed by the New
Jersey and United States Constitutions; to encourage
cooperation among lawyers engaged in the furtherance of
such objectives through educational programs and other
assistance; and thereby promote justice and the common
good. The ACDL-NJ is a state affiliate of the National
Association of Criminal Defense Lawyers (NACDL), the
preeminent national organization in the United States
representing attorneys practicing in the field of criminal
defense, including private criminal defense lawyers, public
defenders, military defense counsel, law professors and
judges committed to ensuring fairness within America’s
criminal justice system.
A proper resolution of the issues raised in this
case is of great concern to the hundreds of members of
the ACDL-NJ, who are committed to the appropriate
development of the law with respect to issues that affect
the rights of individuals. The members of the ACDL-NJ
and their clients will be directly affected by the United
States Supreme Court’s ruling on the matters at issue if
1. In accordance with Supreme Court Rule 37, amicus curiae
states that no counsel for a party authored this brief, in whole or
in part, and no person other than amicus curiae, its members, or
its counsel, made a monetary contribution to the preparation or
submission of this brief. Pursuant to Supreme Court Rule 37.2,
counsel of record for all parties received timely notice of amicus
curiae’s intent to file and both parties have consented to the filing
of this brief.

2
Certiorari is granted. The Petition presents a question
of great importance to the ACDL-NJ, its members, and
their clients.
Specifically, the instant Petition focuses on whether
an individual can be compelled to recall and provide
his or her mobile device password to law enforcement
or other state actors. It is the ACDL-NJ’s position
that the forced compulsion of a suspect to make any
potentially inculpatory statement is a violation of the
Fifth Amendment. Furthermore, the ACDL-NJ and its
members have an important interest in ensuring that the
Foregone Conclusion Doctrine, if deemed constitutional, is
applied in a manner consistent with the Supreme Court’s
precedents and that the doctrine is not misinterpreted
beyond its intended limited application in a manner that
violates suspected offenders’ constitutional rights.
SUMMARY OF ARGUMENT
The New Jersey Supreme Court erroneously held
below that the so-called Foregone Conclusion Doctrine
can be used to compel individuals to provide potentially
incriminating testimony to police. Specifically, the
New Jersey Supreme Court held that, as long as it is a
“foregone conclusion” that the accused is the owner of the
target mobile phone, the suspect must provide authorities
with the phone’s password. Consequently, police and
prosecutors have been granted unfettered access to the
contents of a device that the United States Supreme
Court has consistently recognized contains intimate,
personal details about its owner worthy of greater privacy
protections than merely showing that the phone belongs
to the suspect. The New Jersey Supreme Court ruling
runs contrary to this country’s long-held constitutional

3
protection against self-incrimination, and extends existing
Foregone Conclusion Doctrine jurisprudence well beyond
its intended application. The practical impact of the New
Jersey Supreme Court’s error below is that prosecutors
now prophylactically request language in their warrant
applications intended to compel suspects to provide their
mobile device passwords to investigators without any
additional showing other than ordinary probable cause,
and without consideration of the specific factual context in
which the search is sought. With the New Jersey Supreme
Court’s decision below, the Fifth Amendment has been
eroded to such an extent that it is unrecognizable.
Using the threat of contempt, trial courts throughout
New Jersey now routinely force suspects to utter their
passcodes in open court to facilitate State investigations,
notwithstanding the suspects’ invocation of their Fifth
Amendment right against self-incrimination. This
erosion of the Fifth Amendment is a matter of paramount
importance, and without intervention from the United
States Supreme Court, criminal suspects will continue
to be forced into the compelled disclosure of potentially
incriminating information.
The issue is not exclusive to New Jersey. Courts
around the country are grappling with issues at the
intersection of Fifth Amendment jurisprudence and
the modern mobile technologies that have reshaped the
way that Americans live, work, and socialize. Currently,
the Fifth Amendment is being applied in dramatically
different and uneven ways across the country on this
issue. If the Petition is not granted, confusion regarding
the application and scope of the Fifth Amendment and
so-called Foregone Conclusion Doctrine in the context

4
of compelled passcode disclosure will continue. There is
a significant public policy interest advanced by uniform
application of a federal Constitutional right throughout
the United States, and the Supreme Court’s treatment
of this case will further that important policy interest.
In Fisher v. United States, 425 U.S. 391, 410-413
(1976), this Court held that an act of production is not
testimonial if the State can show with “reasonable
particularity” that, at the time it sought to compel an
actor to produce information, the State already knew of
the materials, thereby making any testimonial aspect a
“foregone conclusion.” The term “foregone conclusion”
is not in the text of the Fifth Amendment or anywhere
else in the United States Constitution, for that matter.
Forcing the accused to produce a password to a mobile
device containing potentially incriminating evidence
runs contrary to the intent of the founders, who “broadly
sought to protect a citizen from ‘be[ing] compelled to
give evidence against himself.’” United States v. Hubbell,
530 U.S. 27, 53 (2000) (Thomas, J. dissenting). Because
the Foregone Conclusion Doctrine is inconsistent with
our founders’ intent, Fisher should be overturned, or
the holding should, at least, be expressly limited by this
Court to exclude personal mobile device passwords within
the coverage of this Fifth Amendment exception that has
arisen from case law. If the Foregone Conclusion Doctrine
is to be applicable to mobile device passcodes, government
actors must establish more than merely that the phone
belongs to the suspect, but instead that the contents that
are to be viewed once the device is opened are a foregone
conclusion based upon information already available to
investigators. The former approach, as taken by the New
Jersey Supreme Court, is logically detached from this

5
Court’s Foregone Conclusion Doctrine jurisprudence,
which was intended to apply, if constitutional, under
precise and exceedingly limited circumstances that are
not present in this case.
ARGUMENT
I.

The United States Supreme Court’s Review is
Warranted Because the Rule of Law Adopted By the
New Jersey Supreme Court Below Impacts Millions
of Ordinary Citizens

The ubiquity and use of personal electronic devices
such as smartphones, tablets, and other portable computing
platforms are undeniable. In 2021, almost every American
owns a smartphone. These devices contain every personal
detail about their users. Everything from the mundane,
like our day-to-day activities, to the professional, like our
schedules, contacts, and emails, are housed on our mobile
devices. We keep the most private information on our
phones, such as passwords to bank accounts, protected
health information, credit card numbers, and other highly
sensitive information. The use of mobile technology is no
longer a luxury; it is a requirement of modern life in the
United States.
The contents of our mobile devices are so important
to the private lives of citizens that the Supreme Court
has remarked:
Modern cell phones are not just another
technological convenience. With all they contain
and all they may reveal, they hold for many
Americans ‘the privacies of life.’ The fact that

6
technology now allows an individual to carry
such information in his hand does not make the
information any less worthy of the protection
for which the Founders fought.
Riley v. California, 573 U.S. 373, 403 (2014) (internal
citations omitted).
The Foregone Conclusion Doctrine was first recognized
as an exception to the Fifth Amendment privilege against
self-incrimination by this Court in Fisher v. United States,
425 U.S. 391 (1976). The Court’s Fisher decision predated
the proliferation of the modern mobile device by at least
three decades. However, in this digital age, the Court’s
holding in Fisher is being erroneously extended and
utilized to compel individuals to recall and provide their
memorized passwords, virtually without restriction, in aid
of investigations and prosecutions against them.
The New Jersey Supreme Court, in its application of
the Foregone Conclusion Doctrine in State v. Andrews,
243 N.J. 447 (2020), effectively created a bright line rule
in New Jersey requiring individuals under criminal
investigation to enter into the recesses of their minds
and provide the memorized passwords to their electronic
devices. The New Jersey Supreme Court’s dramatic
expansion of the Foregone Conclusion Doctrine into this
broader category of digital information necessitates
that the Court revisit the intended scope and breadth
of the Fifth Amendment exception at this time. The law
must constantly be revisited to adapt to the emerging,
fast changing realities of our society, and this is a prime
example of such a circumstance.

7
T he Fi f th A mendment t o the Unit ed Stat es
Constitution provides that “no person shall . . . be compelled
in any criminal case to be a witness against himself[.]”
U.S. Const. amend. V; Fisher v. United States, 425 U.S.
391, 398 (1976). This Court has explained that the Fifth
Amendment protects a person “against being incriminated
by one’s own compelled testimonial communications.”
Fisher, 425 U.S. at 409. Communications are considered
“testimonial” and, therefore encompassed by the Fifth
Amendment privilege against self-incrimination, where
the subject communication tends “to reveal, directly
or indirectly, [one’s] knowledge of facts” or those
communications that “disclose the contents of [one’s]
own mind[.]” Doe v. U.S. (“Doe II”), 487 U.S. 201, 211,
213 (1988). As this Court previously noted, “[i]t is the
extortion of information from the accused, the attempt
to force him to disclose the contents of his own mind
that implicates the Self-Incrimination clause[.]” Id. at
211. Being compelled to disclose or reveal one’s mobile
device password, like “be[ing] compelled to reveal the
combination to [petitioner’s] wall safe,” communicates
the contents of one’s mind directly to the State and is,
therefore, testimonial. See Id. at 210 n. 9.
The Fifth Amendment does not only apply to the
verbal utterances of the accused. In Fisher, this Court
established what has been called the Act of Production
Doctrine. The Act of Production Doctrine recognizes
that the production of subpoenaed documents alone may
have testimonial aspects, including the communication of
information about the documents’ existence, custody, and
authenticity, thereby falling within the coverage of Fifth
Amendment right against self-incrimination. Fisher, 425
U.S. at 409.

8
The Forgone Conclusion Doctrine was established as
an exception to the Act of Production Doctrine in Fisher,
and stands for the proposition that, if the government can
prove that it already knows the information being conveyed
by the subject act of production, then the testimonial
aspect of the act of production doctrine becomes a foregone
conclusion and the suspect “adds little or nothing to the
sum total of the Government’s information by conceding
that he in fact has the [requested information].” Id. at 411.
In those situations, compulsion is not protected by the
Fifth Amendment privilege under existing case law from
this Court. However, in applying the Foregone Conclusion
Doctrine to the facts presented in State v. Andrews, the
New Jersey Supreme Court eliminated the line between
the intended application of the Foregone Conclusion
Doctrine to a given act of production and a testimonial
utterance protected by the Fifth Amendment. Mere
ownership of a mobile device was not the intended test to
assess whether the Foregone Conclusion Doctrine applies.
Nowhere in Fisher does it say that the Act of Production
Doctrine is intended to apply to a testimonial utterance
like a request to verbally supply one’s password to their
mobile device. Yet, the New Jersey Supreme Court held
just that.
In the context of the Fifth Amendment right against
self-incrimination, several time tested guiding principles
can be derived from this Court’s jurisprudence. First,
compulsion of a physical act is generally not testimonial,
and therefore not protected. See, e.g., United States v.
Dionisio, 410 U.S. 1, 7 (1973) (compelling individual to stand
in a lineup is not privileged); Schmerber v. California, 384
U.S. 757, 765 (1966) (compelled provision of a handwriting
exemplar is not privileged); Gilbert v. California, 388 U.S.

9
263, 266 (1967) (taking a voice exemplar is not privileged).
Second, a physical, non-verbal act of production may be
testimonial where the act expresses some explicit or
implicit statement that the provided documents exist,
are in that individual’s possession, or are authentic. See
U.S. v. Hubbell, 530 U.S. 27, 45 (2000) (finding that the
act of producing the documents at issue had testimonial
aspects, at least with respect to the existence and location
of the documents, and therefore was privileged). Finally,
the vast majority of verbal responses, whether written or
oral, will be testimonial and thus protected by the Fifth
Amendment privilege. See Doe II, 487 U.S. at 213-214;
See also Pennsylvania v. Muniz, 496 U.S. 582 (1990)
(“Whenever a suspect is asked for a response requiring
him to communicate an express or implied assertion
of fact or belief . . . the response contains a testimonial
component.”)
Here, disclosure of a password is unquestionably a
verbal response and thus privileged, without exception.
The New Jersey Supreme Court held that the disclosure of
a passcode was testimonial, but nonetheless inconsistently
concluded that the Forgone Conclusion Doctrine applied
without explaining how this case presents an analogous
circumstance to that of Fisher. Andrews, 243 N.J. at 480.
The New Jersey Supreme Court simply missed a step
in its analysis, shaving a proverbial square peg down to
fit into a round hole. This Court has never applied the
Foregone Conclusion Doctrine to verbal testimony for
good reason—it would go completely against the bedrock
principles of the Fifth Amendment to do so. The New
Jersey Supreme Court’s reliance upon Forgone Conclusion
Doctrine jurisprudence in an acknowledged testimonial
setting simply cannot be reconciled with existing law.

10
The Fifth Amendment was adopted in response to the
much reviled Star Chamber practices of fifteenth, sixteen,
and seventeenth century England where extra-judicial
panels would force individuals deemed too powerful to
be brought before the ordinary common law courts to,
among other acts antithetical to our modern constitutional
principles, answer questions used to implicate themselves
in crimes. Doe II, 487 U.S. at 212. As this Court has
remarked, the Fifth Amendment privilege “reflects a
judgment that the prosecution should not be free to build
up a criminal case, in whole or in part, with the assistance
of enforced disclosures by the accused.” Id. (emphasis in
original). It was built upon “our unwillingness to subject
those suspected of crime to the cruel trilemma of selfaccusation, perjury or contempt.” Id. (internal citations
and quotation marks omitted).
Requiring the accused to disclose a password
injects the accused directly into the “cruel trilemma”
recognized in Doe II—i.e., when forced to disclose a
password one must decide to truthfully answer and lead
the prosecution to potentially incriminating evidence
(self-accusation), lie (perjury), or refuse complying with
an order to disclose the password (contempt). This Court
has now long since recognized that it does not matter that
the password itself might not itself be inculpatory, just
that it may lead to potentially incriminating evidence.
See Hubbell, 530 U.S. at 38 (“Compelled testimony that
communicates information that may ‘lead to incriminating
evidence’ is privileged even if the information itself is not
inculpatory.”). The New Jersey Supreme Court did not
properly apply Hubbell by failing to appreciate that the
provision of Mr. Andrews’ password was the sine qua non
of the self-incriminatory disclosure at issue. Accordingly,

11
the ACDL-NJ urges this Court to act before the Fifth
Amendment is winnowed away into obscurity.
An individual should never be compelled to enter the
recesses of his or her mind, recall a memorized password,
and disclose it to the government, only for it to be used
to lead to potentially incriminating evidence. Yet, courts
across the country, including the New Jersey Supreme
Court, are using this Court’s narrow Act of Production
holding in Fisher to do just that. The Petition should be
granted to avoid the continued abrogation of individuals’
constitutional rights, and to reaffirm the sanctity of
bedrock Fifth Amendment principles in our modern
technology driven society.
II. If The Petition Is Not Granted, Confusion Regarding
The Application and Scope of a Fundamental
Constitutional Right Will Continue
State and federal courts throughout the United
States are grappling with the scope and application of
the Forgone Conclusion Doctrine and the application
of the Act of Production Doctrine to modern mobile
technology. Without this Court’s guidance, an individual’s
constitutionally protected Fifth Amendment right will
substantively vary between different states, and will be
applied inconsistently between state and federal courts as
well. For example, in Pennsylvania a password cannot be
compelled, while in the neighboring state of New Jersey
it can. What the New Jersey Supreme Court categorizes
as a mere “foregone conclusion,” Pennsylvania fervently
rejects, finding that no exception applies due to the
unique nature of a chosen passcode protecting the private
contents of a personal device. See State v. Andrews, 243
N.J. 447; Commonwealth v. Davis, 220 A.3d 534 (Pa. 2019).

12
Likewise, while a United States District Court in the
Northern District of California granted a defendant’s
motion to suppress and excluded from evidence a
defendant’s statement regarding her cellphone passcode,
noting in the process that the Foregone Conclusion
Doctrine did not apply, the Fourth Circuit Court of
Appeals has held that any self-incriminating testimony
that a defendant may have provided by revealing the
password was already a “foregone conclusion” because
the government independently proved that the defendant
was the sole user and possessor of the subject device. See
United States v. Maffei, No. 18-CR-00174-YGR-1, 2019 WL
1864712, at *1 (N.D. Cal. Apr. 25, 2019); United States v.
Gavegnano, 305 F. App’x 954, 956 (4th Cir. 2009).
This Court’s decision in Fisher was the one and
only time that the Court has ever used the Foregone
Conclusion Doctrine to limit the Fifth Amendment
right against self-incrimination. Fisher and its progeny
apply the exception only to the compelled production
of documents, not to the digital universe with its vast
capacity for storing private information. Fisher, 425 U.S.
391; Doe, 487 U.S. 201; Hubbell, 530 U.S. 27. This Court
has not provided any further guidance to lower courts
on this exception since 2000 when Hubbell was decided.
During the intervening twenty years, lower courts have
attempted to fit the framework surrounding compelled
production of documents to modern day technologies like
passcode-protected cell phones with varying results. On
such a basic aspect of constitutional law having such broad
implications, the Court’s guidance is now essential.
The New Jersey Supreme Court no doubt expanded
Fisher, holding that the Foregone Conclusion Doctrine

13
applies to the act of unlocking devices, which may reveal
many private aspects of an everyday person’s life. See
Andrews, 243 N.J. 447. The ruling goes far beyond
just the production of business records that Fisher
envisioned. Contrary to what the New Jersey Supreme
Court held below, various other state and federal courts
have concluded that, unlike the production of a document,
revealing a digital passcode impermissibly requires a
person to communicate the contents of his mind. See e.g.,
Davis, 220 A.3d 534; Seo v. State, 148 N.E.3d 952 (Ind.
2020); United States v. Maffei, No. 18-CR-00174-YGR-1,
2019 WL 1864712 (N.D. Cal. Apr. 25, 2019).
Fisher presents a non-textual and narrow exception
to the Fifth Amendment: if the government can show
that the existence, possession or control, and authenticity
of the identified documents or materials it seeks add
“little or nothing to the sum total of the Government’s
information” then the otherwise protected, testimonial act
of producing those documents operates not as “testimony
but surrender.” Fisher, 425 U.S. at 411. (quoting In re
Harris, 221 U.S. 274, 279). However, breaking with the
logic of Fisher, in its Andrews decision, the New Jersey
Supreme Court held that the act of producing a passcode
is testimonial, but nonetheless rationalized holding that
passcodes are not protected by the Fifth Amendment by
mistakenly characterizing them as “a series of characters
without independent evidentiary significance and are
therefore of ‘minimal testimonial value’.” 243 N.J. at
480 (quoting U.S. v. Apple MacPro Computer, 851 F.3d
238, 248 n.7 (3d Cir. 2017). Passcodes are so much more
than that overtly simplistic explanation. The New Jersey
Supreme Court’s characterization is not only detached
from the realities of modern technology that this Court

14
has eloquently recognized in a series of recent decisions,
it is plainly devoid of any support from the precedents of
this Court that it seeks to rely upon.
Specifically, the New Jersey Supreme Court ignored
the nature and quality of the information being accessed
through the revelation of Mr. Andrews’ mobile device
passcode, and in so doing, the New Jersey Supreme
Court thus broadened Fisher well outside of its intended
application. Id. The four-justice majority of the New Jersey
Supreme Court below opined that compelled production
of a passcode is analogous to the line of cases stating that
a criminal defendant may be “compelled to display their
physical characteristics and commit physical acts because
the display of physical characteristics is not coterminous
with communications that relay facts” like handwriting
exemplars and voice samples. Andrews, 243 N.J. at 466
(citing Hubbell, 530 U.S. at 35; Gilbert v. California, 388
U.S. 263, 266 (1967); United States v. Dionisio, 410 U.S. 1,
7 (1973)). However, as Associate Justice Jaynee LaVecchia
of the New Jersey Supreme Court aptly wrote in her
blistering Andrews dissent, joined by fellow Associate
Justices Albin and Timpone, “no case from the United
States Supreme Court presently requires [an individual’s
forced disclosure of the contents of their minds]… and
that protection deserves the utmost respect.” Andrews,
243 N.J. at 485 (LaVecchia, J., dissenting). The logical
gap between the reasoning of the New Jersey Supreme
Court in Andrews and this Court’s Fisher jurisprudence
is so wide that the two cannot be reconciled without
further guidance from this Court. If Fisher was truly
intended to apply to mobile device passcodes on the
strength of the mere fact that the owner of the mobile
device is known, as the New Jersey Supreme Court has

15
now held, there is neither precedent from this Court or
textual support in the Fifth Amendment itself for that
premise. With its Andrews decision, the New Jersey
Supreme Court has authorized prosecutors to engage in
Star Chamber practices that should be condemned rather
than facilitated. The practical impact of Andrews has
been that prosecutors now prophylactically gain entry
into the mobile devices of suspects without more than
demonstrating that the device belongs to the suspect.
The Pennsylvania Supreme Court applied the Fifth
Amendment jurisprudence to an indistinguishable set of
facts from Andrews, and stressed an opposite conclusion—
that the foregone conclusion exception is inapplicable. See
Davis, 220 A.3d at 548-451. The Davis Court concluded,
as did Associate Justice LaVecchia’s dissent in Andrews,
that the foregone conclusion exception applies only to
business records until this Court holds otherwise. Id.;
Andrews 243 N.J. (LaVecchia, J., dissenting). The Davis
court refused to extend the Fifth Amendment exception
to passcode-protected devices, where an individual would
be forced to reveal the contents of his mind. Davis, 220
A.3d at 548. Davis viewed the Commonwealth’s demand
for Davis’ passcode “not as an end” or a mere “foregone
conclusion,” but “as a pathway to the files being withheld.”
Id. Under this Court’s jurisprudence, Davis held that
“the Commonwealth is seeking the electronic equivalent
to a combination to a wall safe.” Id. The Pennsylvania
Supreme Court and the Andrews dissenters have
isolated the precise reason why Certiorari is necessary
at this juncture. Like a mere act of production by an
investigative target might reveal inculpatory facts, so too
does the verbal provision of a passcode that serves as a
conduit for the deepest recesses of an individual’s private

16
affairs. Each are equally deserving of Fifth Amendment
protection.
In Seo, the Indiana Supreme Court expressed
confusion as to when the Foregone Conclusion Doctrine
applies. 148 N.E.3d 952. The Indiana Supreme Court
found the Fifth Amendment exception inapplicable
because investigators had not shown that any particular
files existed on the subject’s device or that the owner of
the device possessed those files. Id. The Indiana Supreme
Court signaled alignment with the protections afforded
by the Pennsylvania Supreme Court in Davis, stating that
the factual context “highlights concerns with extending
the limited foregone conclusion exception to the compelled
production of an unlocked smartphone.” Seo, 148 N.E.3d
at 955. With such uncertainty, the proper development of
the law is threatened without action on the Petition now
before the Court.
It is especially notewor thy that New Jersey
and Pennsylvania Supreme Courts were met with
indistinguishable facts and came to opposite conclusions.
Even among the state Supreme Courts that have come
out on different sides of the issue, the matters have been
decided by thin majorities, with significant dissents. While
the high courts of some states acknowledge that digital
is different and should be treated differently, like this
Court noted in Riley, other state supreme courts attempt
to equate producing physical documents to producing
a passcode to decrypt a device that stores intimate
details of a person’s life. See Riley 573 U.S. 373. The
Courts addressing this issue are interpreting the same
constitutional right. It cannot be both ways.

17
As this Court discussed in Carpenter, passcodes are
carefully chosen sequences of numbers or letters that are
meant to give an individual privacy and protection. See
Carpenter v. U.S., 138 S. Ct. 2206, 2217 (2018). The New
Jersey Supreme Court’s dismissal and minimization of
the importance of a passcode runs counter to that notion.
Continued confusion relating to application of the
Foregone Conclusion Doctrine has created a material
difference in the scope of an individual’s Fifth Amendment
rights depending solely on state borders. A federal
constitutional right should not be so unevenly applied.
Courts are trying to analogize whether a passcode is
more akin to handing over a key to a lockbox or being
compelled to provide a combination to a wall safe based on
this Court’s discussion in Hubbell. Hubbell, 530 U.S. at 43.
One is a physical act and unprotected; the other involves
delving into the contents of the mind. State supreme
courts are grappling with the expansion of ever-changing
technological advancements and trying to situate those
advancements within doctrine that did not anticipate the
technology we have today, will have tomorrow, and in
the years to come. The Court must, therefore, act on the
Petition.
Even more confusion exists regarding what the
government needs to show to meet the Foregone
Conclusion Doctrine’s exception to the Fifth Amendment.
Court opinions diverge: does the government need to show
the existence, possession or control, and authenticity of the
passcode, or the nature and character of the documents
presumably contained within the device?

18
In Andrews, the New Jersey Supreme Court applied the
physical production of documents framework to passcodeprotected devices. Andrews, 243 N.J. 447. After finding the
Foregone Conclusion Doctrine compels the production of
passcodes, the Court further found that the State had met
its burden to compel Andrews to produce the passcodes,
overcoming his Fifth Amendment privilege. Id. The New
Jersey Supreme Court applied the Foregone Conclusion
Doctrine to the passcode itself, finding that because the
passcodes existed, were in Andrews’ possession or control,
and could be authenticated, the test was satisfied. Id. The
Supreme Court of Massachusetts and the intermediate
appellate court for the Second District of Florida have
articulated the applicable test in the same manner. See,
e.g., Commonwealth v. Gelfgatt, 11 N.E.3d 605 (Mass.
2014); State v. Stahl, So. 3d 124, 136 (Fla. Dist. Ct. App.
2016). The ACDL-NJ respectfully submits that the courts
in Andrews, Gelfgatt and Stahl impermissibly broadened
the Foregone Conclusion Doctrine. Today, a majority of
cell phone users have smartphones requiring some type
of privacy protecting passcode. Thus, the notion that
mere possession or control, coupled with authentication, is
enough to subvert the Fifth Amendment falls well short of
what can be gleaned from this Court’s Fifth Amendment
jurisprudence, to date.
Unlike the New Jersey Supreme Court’s decision
in Andrews and the decisions of those courts that have
mirrored its flawed logic, a series of courts throughout
the country have concluded that the Foregone Conclusion
Doctrine is inapplicable to mobile device passcodes and
should not be extended beyond its limited scope pertaining
to production of business records. See e.g., Davis, 220
A.3d 534; Seo, 148 N.E.3d 952; G.A.Q.L. v. State, 257 So.

19
3d 1058, 1063 (Fla. Dist. Ct. App. 2018). These courts
have properly reasoned that, to assess if the exception
applies, the government’s showing turns on the contents
being sought once the passcode is received. Id. This is
the proper analysis, should the Foregone Conclusion
Doctrine even apply. To ignore the contents being sought
once the passcode is received is not only illogical, it
eviscerates the protections that this Court intended to
extend to individuals under the Fifth Amendment’s Act
of Production Doctrine entirely.
Demonstrating the lack of uniformity and split among
the courts that have addressed the issue presented here,
it has been tackled by intermediary appellate courts
in Florida more than once, and each time there was
different result. The District Court of Appeal of the
State of Florida, Fourth District, feared that applying
the foregone conclusion exception to the compelled
production of passcodes would swallow Fifth Amendment
protections. G.A.Q.L. v. State, 257 So. 3d 1058, 1063 (Fla.
Dist. Ct. App. 2018). Like Davis and Seo, Florida’s Fourth
District reasoned that a passcode is more akin to a safe
combination than it is to a key to a lockbox. The Fourth
District also joined Davis and Seo in acknowledging that
the exception must analyze the contents sought behind the
passcode, not merely the passcode itself. Id.
However, just two years prior, the District Court of
Appeal of the State of Florida, Second District, applied
the Foregone Conclusion Doctrine in the same manner as
the New Jersey Supreme Court did in Andrews. That is,
to the passcode itself and not to the contents device sought
behind the passcode. See State v. Stahl, 206 So. 3d 124
(Fla. Dist. Ct. App. 2016). Later, in 2019, the District Court

20
of Appeal of the State of Florida, First District, agreed
with the Fourth District that “on the assumption that the
foregone conclusion exception applies to core testimonial
communications” the State must show what information
exists “beyond the password-protected cellphone wall.”
Pollard v. State, 287 So.3d 649 (Fla. Dist. Ct. App. 2019)
(citing In re Grand Jury Subpoena, 670 F.3d 1335, 1347
(11th Cir. 2012).
The split among the various federal courts are
along the same lines. For example, the Third Circuit
Court of Appeals held that the Fifth Amendment does
not protect an act of production when the potentially
testimonial component of the act of production, such as
the existence, custody, and authenticity of evidence, is
a “foregone conclusion” that does not add anything to
the information that the Government already knows.
United States v. Apple MacPro Computer, 851 F.3d 238,
247 (3d Cir. 2017). Similarly, the Fourth Circuit Court of
Appeals held that the Fifth Amendment is not violated
when a suspect provides the password to a device, and
the Government is aware that the suspect is the sole user
and owner of the device, therefore satisfying the Foregone
Conclusion Doctrine. United States v. Gavegnano, 305 F.
App’x 954, 956 (4th Cir. 2009). However, the United States
District Court for the Northern District of California
granted a defendant’s motion to suppress and excluded
from evidence the defendant’s statement regarding her
cell phone passcode and noted the Foregone Conclusion
Doctrine did not apply. United States v. Maffei, No.
18-CR-00174-YGR-1, 2019 WL 1864712, at *1 (N.D. Cal.
Apr. 25, 2019).

21
The current uneven and disjointed method of
adjudicating the issue now before this Court throughout
the country is a detriment to our constitutional system.
The manner that one’s rights under the Fifth Amendment
to the United States Constitution is adjudicated should not
depend on what state or local jurisdiction within a state the
target of a criminal investigation finds himself or herself
in at the time of a governmental inquiry. This Court
should provide guidance to eliminate the diametrically
opposite approaches to handling the same issue that have
emerged in the nation. The split is pronounced, dramatic,
and should no longer evade review by the United States
Supreme Court.
III. Fisher Should Be Revisited
In Fisher, this Court held that under the Foregone
Conclusion Doctrine, an act of production is not testimonial
if the State can show with “reasonable particularity”
that, at the time it sought to compel an actor to produce
information, the State already knew of the materials,
thereby making any testimonial aspect a “foregone
conclusion.” Fisher, 425 U.S. at 410-13. As a result, the
self-incrimination privilege did not bar the production of
the documents sought. Id. at 413. Since Fisher, this Court
has never again applied the Foregone Conclusion Doctrine
to the Fifth Amendment. This Court should consider
overruling Fisher.
The term “foregone conclusion” is not in the text
of the Fifth Amendment or the Constitution. For many
years the Fifth Amendment prohibited all compelled
testimony, as well as any compelled evidence that would
lead to incrimination. Boyd v. United States, 116 U.S.

22
616, 634–635 (1886). The late Justice Scalia and Justice
Thomas have both properly questioned whether compelling
incriminating testimony or evidence is consistent with the
Fifth Amendment, stating that compelling such evidence
“may be inconsistent with the original meaning of the Fifth
Amendment’s Self-Incrimination Clause.” United States
v. Hubbell, 530 U.S. 27, 49 (2000) (Thomas, J., dissenting).
Further, “the privilege against self-incrimination was
enshrined in the Virginia Declaration of Rights in 1776,”
which provided that “no one may ‘be compelled to give
evidence against himself.’ ” Id. at 52. (citing Virginia
Declaration of Rights § 8 (1776), in 1 The Bill of Rights: A
Documentary History 235 (B. Schwartz ed.1971)).
This Court must assure “preservation of that degree
of privacy against government that existed when the
[Fifth] Amendment was adopted” and not only protect “the
specific rights known at the founding; it means protecting
their modern analogues too.” Carpenter v. United States,
138 S. Ct. 2206, 2271 (2018) (Gorsuch, J., dissenting). The
modern analogues include cellphones, “which are now
such a pervasive and insistent part of daily life that the
proverbial visitor from Mars might conclude they were an
important feature of human anatomy.” Riley v. California,
573 U.S. 373, 385 (2014) (Roberts, C.J., majority).
There is no support for the Foregone Conclusion
Doctrine in anything from our founders, or in the text
of the Constitution itself. Forcing an accused to produce
a password to a cell phone containing potentially
incriminating evidence runs contrary to the intent of the
founders, who “broadly sought to protect a citizen from
‘be[ing] compelled to give evidence against himself.’”
Hubbell, 530 U.S. at 53 (Thomas, J. dissenting). Because

23
the Foregone Conclusion Doctrine is inconsistent with the
founders’ intent to protect against compelled incrimination
broadly, Fisher should now be overruled.
CONCLUSION
For the foregoing reasons, as well as those expressed
in the Petition, the ACDL-NJ urges this Court to grant
the Petition for Writ of Certiorari.
February 11, 2021 Respectfully submitted,
Matthew S. A dams
Marissa Koblitz Kingman
Counsel of Record
A rrianna T. Diamantis
Fox Rothschild LLP
49 Market Street
Morristown, New Jersey 07960
(973) 992-4800
mkingman@foxrothschild.com
Linda D. Foster
President of the A ssociation of
Criminal Defense Lawyers of
New Jersey
P.O. Box 180
West Allenhurst, New Jersey 007711
(732) 517-1533
Counsel for Amicus Curiae

